March 4, 2021
Pennsylvania Office of Attorney General
Criminal Law Division
Appeals & Legal Services Section
16th Floor, Strawberry Square
Harrisburg PA 17120
(Phone) (717) 787-1401
Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543
RE:

Donald Mitchell Tedford v. Pennsylvania
Case No. 20-5795 (Capital Case)

Dear Mr. Harris:
By this letter and pursuant to Rule 30.4, Respondent, the Commonwealth of
Pennsylvania, is respectfully requesting a one-day retroactive extension of time in which
to file its brief in opposition to the petition for writ of certiorari in this capital case, from
February 12, 2021to February 13, 2021.
On September 16, 2020, Petitioner Donald Tedford filed his petition for writ of
certiorari with the Court. The petition was docketed on September 24, 2020. Pursuant to
Rule 15.3, the Respondent’s brief in opposition was originally due to be filed on or
before October 26, 2020. Respondent sought several extensions of this deadline due to
Covid-19-related reasons as well as social unrest, and this Honorable Court graciously
granted those requests and established a new filing deadline for the Respondent of
February 12, 2021.
Respondent filed its brief on February 13 rather than February 12, 2021.
This was due to the fact that undersigned counsel experienced ongoing technical
difficulties utilizing Westlaw from his remote desktop in his home during the
week of February 7, 2021. This included significant delays in obtaining search
results and extended slightly the time required to prepare and file an adequate
brief in opposition.

Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543

Page -2-

In light of this circumstance, Respondent respectfully requests the Court to find
good cause to extend retroactively the filing deadline for its brief in opposition to the
petition for writ of certiorari by one day until February 13, 2021.
Thank you for your attention to this request.
Sincerely,
/s/WILLIAM R. STOYCOS
William R. Stoycos
Senior Deputy Attorney General

C:

Adam B. Cogan, Esquire

